IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19-123
SHARONELL FULTON, ET AL., PETITIONERS
v.
CITY OF PHILADELPHIA, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT
_______________
Pursuant to Rules 28.4 and 28.7 of the Rules of this Court,
the Solicitor General, on behalf of the United States, respectfully
moves that the United States be granted leave to participate in
the oral argument in this case and that the United States be
allowed ten minutes of argument time.

This case presents the

question whether the City of Philadelphia’s termination of the
contract that allowed Catholic Social Services to help place
children in the city with foster parents, on the basis of Catholic
Social Services’ unwillingness to endorse same-sex couples as
foster parents, violated the Free Exercise Clause of the First

2
Amendment.

The United States has filed a brief as amicus curiae

supporting petitioners, arguing that the City has violated the
Free Exercise Clause.

Petitioners have agreed to an allocation of

ten minutes of argument time to the United States and therefore
consent to this motion.
The United States has a substantial interest in this case.
As a general matter, the United States has a substantial interest
in the preservation of the federal constitutional right of free
exercise of religion.

In addition, the federal government has

prohibited discrimination on the basis of sexual orientation in
certain contexts.

The United States is thus well positioned to

address the reconciliation of such anti-discrimination efforts
with the freedom of religion protected by the First Amendment.
Moreover, the United States previously presented oral argument as
an amicus curiae in Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights

Commission,

138

S.

Ct.

1719

(2018)

(No.

16-111).

Participation by the United States could therefore materially
assist this Court in its consideration of this case.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
AUGUST 2020

